Follow-Up Audit on Recommendation No. 1 from
Audit Report No. 1-523-99-001-P Entitled
“Quality of Results Reported in USAID/Mexico’s
Results Review and Resource Request (R4)
Report Prepared in 1997”
Audit Report No. 1-523-02-002-P

November 8, 2001




       Regional Inspector General / San Salvador
U.S. Agency for
 INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


November 8, 2001

MEMORANDUM

FOR:               USAID/Mexico Director, Paul E. White

FROM:              Regional Inspector General/San Salvador, Timothy E. Cox

SUBJECT:           Follow-Up Audit on Recommendation No. 1 from Audit Report
                   No. 1-523-99-001-P Entitled “Quality of Results Reported in
                   USAID/Mexico’s Results Review and Resource Request (R4)
                   Report Prepared in 1997” (Report No. 1-523-02-002-P)

This memorandum is our report on the subject audit. In finalizing the report, we
considered your comments on the draft report. Your comments on the draft report
are included in Appendix II.

The report contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                                  3
Contents

           Background                                                          3


           Audit Objective                                                     4


           Audit Findings                                                      4


           Did the fiscal year 2000 reported results in
           USAID/Mexico’s 2001 Results Review and Resource
           Request report meet the data quality standards
           required in USAID’s Automated Directives System?                    4


                  Two Results Reported Did Not Meet the Validity Standard      4


                  One Result Reported Did Not Meet the Reliability Standard    6


           Management Comments and Our Evaluation                              7


           Appendix I – Scope and Methodology                                  8


           Appendix II – Management Comments                                  10


           Appendix III – Results Table                                       11




                                                                                   2
Summary of   In order to follow up on an audit recommendation for the audit of
Results      USAID/Mexico’s 1997 Results Review and Resource Request (R4) report, the
             Regional Inspector General/San Salvador included an audit in its fiscal year 2001
             audit plan to determine if the fiscal year 2000 reported results in
             USAID/Mexico’s 2001 R4 report met the data quality standards required in
             USAID’s Automated Directives System. (See page 4.)

             The audit found that the results reported for 18 of the 21 performance indicators
             in USAID/Mexico’s 2001 R4 report met the data quality standards required in
             USAID’s Automated Directives System. Results reported for two performance
             indictors did not meet the data quality standard for validity while one did not
             meet the data quality standard for reliability. We did not make any
             recommendations because USAID eliminated the R4 for future periods. (See
             pages 4 through 6.)

             USAID/Mexico agreed with the findings presented in this report. (See page 7.)



Background   In October 1998, as part of a worldwide audit at 18 USAID missions, RIG/San
             Salvador issued an audit report assessing results reported in USAID/Mexico’s
             1997 Results Review and Resource Request (R4) report. That audit determined
             that USAID/Mexico did not report results which were objectively verifiable,
             supported, accurate, complete, and validated and that improvements were needed
             in 88 percent (14 of 16) of the results reviewed. Consequently, the audit report
             recommended that USAID/Mexico:

             •      ensure that its performance indicators in the R4 prepared in 1999 were
                    objective and clearly defined regarding what specific results are to be
                    measured; and

             •      ensure that the performance data identified in its R4 prepared in 1999
                    were supported, accurate, complete, and validated; or fully disclose in the
                    R4 any data limitations and their implications for assessing the
                    measurement and achievement of performance targets for each
                    performance indicator, and a time frame for resolving the problems.

             The mission agreed with the audit report findings and recommendation.
             USAID’s Bureau for Management determined that corrective action had been
             taken on the recommendation and closed it on July 21, 1999.

             According to USAID/Mexico financial records, its fiscal year 2001 operating
             year budget totaled approximately $21 million at June 30, 2001.




                                                                                                 3
Audit Objective In order to follow up on the audit recommendation described above, the Regional
                     Inspector General/San Salvador included an audit in its fiscal year 2001 audit plan
                     to answer the following question:

                            Did the fiscal year 2000 reported results in USAID/Mexico’s 2001 Results
                            Review and Resource Request report meet the data quality standards
                            required in USAID’s Automated Directives System?

                     Appendix I describes the audit's scope and methodology.



Audit Findings       Did the fiscal year 2000 reported results in USAID/Mexico’s 2001 Results
                     Review and Resource Request report meet the data quality standards
                     required in USAID’s Automated Directives System?

                     The fiscal year 2000 results for 86 percent (18 of 21) of the performance indicators
                     reported in USAID/Mexico’s 2001 Results Review and Resource Request (R4)
                     report met the data quality standards required in USAID’s Automated Directives
                     System (ADS). The results for 14 percent (3 of 21) of the performance indicators
                     did not meet the data quality standards. Appendix III lists the 21 indicators
                     reviewed and our conclusions for each of the criteria evaluated for the indicator.

                     USAID/Mexico has taken the following steps to improve the quality of data
                     presented in its R4 report since the last audit:

                     •      USAID/Mexico created a program office and hired a program specialist to
                            coordinate R4 report data and performance indicator quality issues for all
                            the strategic objective (SO) teams at the mission.

                     •      SO team members have received training on performance monitoring.

                     •      SO teams have conducted performance indicator and data quality
                            assessments.

                     •      SO teams have solicited assistance from USAID/Washington and other
                            external experts in preparing their performance monitoring plans.

                     Two Results Reported Did Not Meet the Validity Standard

                     For each fiscal year 2000 result reported in the R4 report, we assessed whether the
                     result met five data quality standards. These standards were defined in ADS




                                                                                                           4
                         203.3.6.51 , entitled “Data Quality Standards.” These standards were validity,
                         reliability, timeliness, precision, and integrity. The definitions of these terms are
                         included in Appendix I.

                         According to the ADS, “data are valid to the extent that they clearly, directly,
                         and adequately represent the result that was intended to be measured.” Results
                         reported for two indicators did not meet the validity standard.

                         The first indicator that did not meet the validity standard was as follows: Percent
                         of annual policy goals achieved – energy efficiency, pollution prevention, and
                         renewable energy.

                         The results reported for this indicator did not meet the ADS standard for validity
                         because the annual policy goals being measured did not have established criteria
                         to determine if the goal was achieved. According to USAID/Mexico, the scores
                         for this indicator were determined through discussions that resulted in a
                         consensus between USAID/Mexico and its implementing partners. However,
                         without defined criteria to measure achievement, determining the level attained
                         becomes overly subjective. Therefore, the result reported was not a clear
                         measure of the percent of annual policy goals achieved.

                         According to the SO team leader, he was aware of the limitation on how goal
                         attainment was being measured. It had not been addressed because other
                         performance indicators and other activities had a higher priority.

                         The second indicator that did not meet the validity standard was as follows:
                         Proportion of tuberculosis laboratories in the priority areas participating in the
                         National Institute of Epidemiological Diagnosis and Reference’s quality assurance
                         program.

                         This indicator does not measure the planned result, which was to increase the use
                         of laboratory-based diagnosis to identify tuberculosis cases. Instead, this
                         indicator measures the quality of the laboratories doing the diagnosis.

                         This indicator was reported because the mission felt it was important to show
                         that the quality of the laboratory-based diagnoses was improving.
                         USAID/Mexico believed that this indicator demonstrated a positive effect the
                         program was having even though it did not measure an intended result.
                         Nonetheless, using an indicator in the R4 report that does not measure the
                         intended result could lead to inappropriate conclusions about the effectiveness of
                         the program.




1
 On October 19, 2001, USAID eliminated the Results Review and Resource Request (R4) processes and superseded the
policy guidance set forth in ADS 203.3.6.


                                                                                                                   5
One Result Reported Did Not Meet the Reliability Standard

Results reported for one indicator did not meet the reliability standard. That
indicator was as follows: Percent of municipalities in other states of Mexico that
requested information from USAID target municipalities, the International
City/County Management Association, or from the participating municipal
associations and implemented a local governance project based on that
information. In other words, the result for the indicator was calculated as the
number of municipalities that implemented a local governance project based on
information received from the USAID project divided by the total number of
municipalities that requested information.

According to the ADS, reliable data “should reflect stable and consistent data
collection processes and analysis methods.” The results reported for this
indicator did not meet the ADS standard for reliability because a data collection
methodology did not exist to ensure data was collected consistently.

Documentation from USAID/Mexico’s implementing partner indicated that they
were undercounting, by reporting only documented inquiries, the number of
municipalities that were requesting information. The mission noted this
limitation with the data in a data quality assessment conducted by the mission in
September 2000 and instructed the implementing partner to correct the situation.
However, at the time the results were reported in the R4 report, the SO team was
unaware that its follow-up to correct the limitation was ineffective.

Understating the number of municipalities that requested information to calculate
the reported percentage has the effect of overstating the result. Based on
subsequent estimates, the 7.5 percent reported in the R4 report could have been
as low as 1.8 percent.

The three indicators discussed above address specific data quality limitations
noted during this audit. In addition, we noted that the process followed for
finalizing the R4 report did not include an independent review of the
documentation that supported the results published. A review of the supporting
documentation by someone not familiar with the project may have enabled
USAID/Mexico to detect the data quality limitations noted in this audit before
they were published in the R4 report.

After we completed our fieldwork and issued our draft report, USAID eliminated
the R4 for future periods and the related ADS guidance. For that reason, we did
not make any recommendations to address the findings noted in this audit report.
Notwithstanding, USAID/Mexico should consider taking action on the findings
to the extent that they remain relevant under any reporting process that may
replace the R4 or for internal project monitoring purposes.




                                                                                    6
Management       Mission officials concurred with the findings and conclusions of our audit. There
Comments and     were no recommendations requiring corrective action. Mission comments are
Our Evaluation   attached in their entirety as Appendix II.




                                                                                                     7
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit, in
              accordance with generally accepted government auditing standards, to determine
              if the fiscal year 2000 reported results in USAID/Mexico’s 2001 Results Review
              and Resource Request (R4) report met the data quality standards as required in
              USAID’s Automated Directives System (ADS).

              We reviewed the management controls used by the mission to monitor data
              quality of results reported in the R4 report. Major controls included a program
              office to coordinate performance monitoring training for strategic objective (SO)
              team members and performance indicator and data quality assessments performed
              by SO team members.

              We reviewed all of the fiscal year 2000 reported results for USAID/Mexico’s
              performance indicators in its R4 report dated April 2001 to determine if the data
              reported met the data quality standards established in ADS 203.3.6.5 b. and c.
              Specifically, we determined if the reported results met reasonable standards of
              validity, reliability, timeliness, precision, and integrity.

              We did not review supporting evidence maintained by the entities that collected
              the data for USAID. Our audit was limited to the support on-hand at the mission
              to substantiate reported results.

              The audit was conducted at USAID/Mexico from August 20, 2001 through
              August 31, 2001. On October 19, 2001, USAID eliminated the R4 and ADS
              203.3.6.

              Methodology

              For the results reported for each indicator, we determined which of three possible
              answers applied to each of the data quality standards:

              1.      Yes, the standard was met, or its limitations were disclosed in either the
                      R4 report or the Performance Monitoring Plan.

              2.      No, the standard was not met, and the limitations were not disclosed to
                      management.

              3.      The data standard was not applicable, either because there was no
                      reported result for the indicator in the R4 or because the category did not
                      apply for the type of indicator (i.e., per the ADS, the standard for
                      precision does not apply to qualitative data).




                                                                                                    8
                                                                     Appendix I
We used the following definitions from the ADS as criteria to guide our review.

•      Validity: Data are valid to the extent that they clearly, directly, and
       adequately represent the result that was intended to be measured.

•      Reliability: Data should reflect stable and consistent data collection
       processes and analysis methods over time. Managers should be confident
       that progress toward performance targets reflects real changes rather than
       variations in data collection methods.

•      Timeliness: Data should be available with enough frequency and should
       be sufficiently current to inform management decision-making at the
       appropriate levels.

•      Precision: Data should be sufficiently accurate to present a fair picture
       of performance and enable the SO Team to make confident management
       decisions.

•      Integrity: Data that are collected, analyzed, and reported should have
       established mechanisms in place to reduce the possibility that they are
       manipulated for political or personal reasons.

For our materiality threshold, we determined, if 90 percent or more of the results
reported met all five data quality standards, then the answer to the audit objective
would be positive. If between 70 to 90 percent of the results reported met all five
data quality standards, the answer would be qualified. If less than 70 percent of the
indicators met the data quality standards, then the answer would be negative.




                                                                                    9
                                                                                             Appendix II


Management
Comments




                                                       October 30, 2001


MEMORANDUM


FOR:         Regional Inspector General/San Salvador, Timothy E. Cox

FROM:          USAID/Mexico Acting Mission Director, Janet Paz- Castillo

SUBJECT:       Comments on draft Audit Report No. 1-523-02-00X-P Follow-Up Audit on
               Recommendation No. 1 from Audit Report No. 1-523-99-001-P Entitled "Quality of
               Results Reported in USAID/Mexico's Results Review and Resource Request (R4) Report
               prepared in 1997".

       This is to inform you that after circulating the subject draft audit report to USAID/Mexico staff,
reviewing and discussing it among the Mission members we have agreed that its' content and the
recommendations stated in it are fair and accurate. Therefore, we don't have additional comments to
include in the mentioned report.




                                                                                                        10
                                                                                                          Appendix III



Results Table   SUMMARY OF THE QUALITY OF DATA REPORTED FOR INDICATORS IN USAID/MEXICO’S
                         2001 RESULTS REVIEW AND RESOURCE REQUEST (R4) REPORT

                Indicator          Result              Validity   Reliability   Timeliness   Precision   Integrity
                Description        Measured            Standard   Standard      Standard     Standard    Standard
                                                       Met?       Met?          Met?         Met?        Met?
                1. Number and      Critical            Yes        Yes           Yes          N/A         Yes
                area of critical   ecosystems and
                ecosystems, in     biological
                target areas,      resources
                with adequate      conserved
                management
                2. Number of       Management of       Yes        Yes           Yes          N/A         Yes
                sites meeting      target protected
                pre-determined     areas and other
                management         critical
                goals              ecosystems
                                   improved
                3. Number of       Demonstration       Yes        Yes           Yes          Yes         Yes
                men and            and
                women in target    implementation
                areas practicing   of sustainable
                sustainable        use activities in
                activities         biologically
                promoted by        important areas
                USAID




                                                                                                                     11
                                                                                         Appendix III

Indicator          Result             Validity   Reliability   Timeliness   Precision   Integrity
Description        Measured           Standard   Standard      Standard     Standard    Standard
                                      Met?       Met?          Met?         Met?        Met?
4. Amount of       Carbon dioxide     Yes        Yes           Yes          Yes         Yes
carbon dioxide     emissions and
emissions          pollution
prevented          reduced
through selected
energy
efficiency
measures and
adoption of
renewable
energy
technologies
5. Percent/        Adoption of        Yes        Yes           Yes          Yes         Yes
number of          RMS and
enterprises or     renewable
municipalities     energy
continuing to      technologies
use Resource       and practices in
Management         targeted
Systems (RMS)      industries and
and renewable      municipalities
energy
technologies
without USAID
financial
support one
year after
installation




                                                                                                    12
                                                                                               Appendix III

Indicator           Result            Validity       Reliability   Timeliness   Precision     Integrity
Description         Measured          Standard       Standard      Standard     Standard      Standard
                                      Met?           Met?          Met?         Met?          Met?
6. Percent of       Selected          No –           Yes           Yes          Could not     Yes
annual policy       policies in place Criteria to                               determine
goals achieved      that promote      determine                                 because the
in energy           the use of RMS whether                                      validity
efficiency,         and renewable     goals were                                standard
pollution           energy            met was                                   was not
prevention, and     technologies      not defined.                              met.
renewable
energy
7. Number of        Improved          Yes            Yes           Yes          N/A           Yes
Mexican             Mexican
institutions with   institutional
adequate            capacity in
capacity in         RMS and
RMS and             renewable
renewable           energy
energy              technologies
technologies
8. Rating on        More effective    Yes            Yes           Yes          N/A           Yes
the effective       local
local               governance in
governance          target areas
component of
the Local
Governance
Milestone Index




                                                                                                          13
                                                                                          Appendix III

Indicator          Result              Validity   Reliability   Timeliness   Precision   Integrity
Description        Measured            Standard   Standard      Standard     Standard    Standard
                                       Met?       Met?          Met?         Met?        Met?
9. Percent of      Increased           Yes        Yes           Yes          Yes         Yes
cases              access to justice
successfully
mediated in
target mediation
centers
10. Percent of     More                Yes        No – A       Yes           Yes         Yes
municipalities     democratic                     consistent
in other states    processes                      method for
of Mexico that     adopted in key                 collecting
requested          government                     data has not
information        institutions                   been
from USAID                                        developed.
target
municipalities
or other
participants and
implemented a
local
governance
project based on
that information
11. Number of      Enhanced            Yes        Yes           Yes          Yes         Yes
target states      quality and
with on-going      sustainability of
public-private     HIV/AIDS/
collaborations     Sexually
                   Transmitted
                   Infections (STI)
                   services in
                   target states
                                                                                                     14
                                                                                         Appendix III

Indicator          Result             Validity   Reliability   Timeliness   Precision   Integrity
Description        Measured           Standard   Standard      Standard     Standard    Standard
                                      Met?       Met?          Met?         Met?        Met?
12. Change in      Improved           Yes        Yes           Yes          N/A         Yes
AIDS Policy        HIV/AIDS/STI
Environment        policy
Score              environment at
                   the national and
                   sub-national
                   level
13. Number of      Increased          Yes        Yes           Yes          Yes         Yes
HIV/AIDS non-      capacity of
governmental       governance and
organizations in   non-
target states      governmental
with improved      partners to
strategic plans    deliver
                   HIV/AIDS/STI
                   services
14. Proportion     A sustainable      Yes        Yes           Yes          Yes         Yes
of tuberculosis    and effective
cases detected     institutional
                   capacity
                   developed to
                   diagnose,
                   control and
                   monitor
                   tuberculosis in
                   target areas




                                                                                                    15
                                                                                    Appendix III

Indicator         Result         Validity   Reliability   Timeliness   Precision   Integrity
Description       Measured       Standard   Standard      Standard     Standard    Standard
                                 Met?       Met?          Met?         Met?        Met?
15. Proportion    A sustainable  Yes        Yes           Yes          Yes         Yes
of tuberculosis   and effective
cases cured       institutional
                  capacity
                  developed to
                  diagnose,
                  control and
                  monitor
                  tuberculosis
16. Number of     Improved        Yes       Yes           Yes          Yes         Yes
inter-            national and
institutional     state political
meetings          and
convened at the   administrative
national level    commitment to
with              a tuberculosis
representatives   control program
of the National
Program and
each of the
major
institutions
involved in
tuberculosis
prevention and
control




                                                                                               16
                                                                                           Appendix III

Indicator          Result           Validity    Reliability   Timeliness    Precision     Integrity
Description        Measured         Standard    Standard      Standard      Standard      Standard
                                    Met?        Met?          Met?          Met?          Met?
17. Proportion     Increased use of No –        Yes           Yes           Yes           Yes
of tuberculosis    laboratory-      Indicator
laboratories in    based diagnosis does not
the priority       to identify      measure
states             tuberculosis     intended
participating in   cases            result.
a quality
assurance
program
18. Mexican        Mexican             Yes      N/A– No       N/A– No       N/A– No       N/A– No
Working Group      objectives for               data          data          data          data
formed, to         strengthening                reported in   reported in   reported in   reported in
provide strategy   the institutional            the R4.       the R4.       the R4.       the R4.
policy direction   foundations for
                   microenterprise
                   defined and
                   action
                   mechanisms
                   developed
19. Sources of     Sustainable         Yes      N/A– No       N/A– No       N/A– No       N/A– No
new capital for    sources of                   data          data          data          data
microenterprise    capital accessed             reported in   reported in   reported in   reported in
financial          for                          the R4.       the R4.       the R4.       the R4.
institutions       microenterprise
accessed




                                                                                                        17
                                                                                             Appendix III

Indicator           Result             Validity   Reliability   Timeliness    Precision     Integrity
Description         Measured           Standard   Standard      Standard      Standard      Standard
                                       Met?       Met?          Met?          Met?          Met?
20. Micro-          Microenterprise    Yes        N/A– No       N/A– No       N/A– No       N/A– No
enterprise          financial                     data          data          data          data
financial           institution’s                 reported in   reported in   reported in   reported in
institutions with   institutional                 the R4.       the R4.       the R4.       the R4.
strengthened        capacity
operating           strengthened, to
procedures and      increase
management          microenterprise
controls            access to credit
                    and financial
                    services
21. Key             Relationship       Yes        N/A– No       N/A– No       N/A– No       N/A– No
research            analyzed                      data          data          data          data
completed on        between                       reported in   reported in   reported in   reported in
migration-          microenterprise               the R4.       the R4.       the R4.       the R4.
microenterprise     and the need to
relationship;       migrate
microenterprise
contribution to
the Mexican
economy; and
institutional
support for rural
microenterprise




                                                                                                          18
